HHS/OIG, Audit -"Review of Place of Service Coding for Physician Services,"(A-02-04-01010)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Place of Service Coding for Physician Services," (A-02-04-01010)
January 26, 2005
Complete
Text of Report is available in PDF format (259 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of Medicare Part B overpayments made to physicians by Empire Medicare
Services (Empire) for billings with an incorrect place of service code.  Eighty-eight of 100 sampled physician services
were performed in a facility, but were incorrectly billed by the physicians to Medicare Part B using the office place
of service code.  To account for the increased practice expense incurred by physicians in their offices, Medicare
reimburses a higher amount for services performed in this setting.  We recommended that Empire:  (1) recover
$3,641 of identified overpayments; (2) work with the physicians represented in the population of potential errors to reassess
their billings and to refund any overpayments estimated at $1,467,318; (3) strengthen its education process and re-emphasize
to physicians, the importance of correctly reporting the place of service, and the need for internal control systems to
prevent Medicare billings with incorrect place of service codes; (4) instruct physicians to notify their billing agents
of the importance of using correct place of service codes; and (5) work with the Program Safeguard Contractor or the Fiscal
Intermediary to perform a data match on an ongoing basis, to identify physician services having a high potential for error
due to place of service miscoding, and to recover program overpayments that result from these errors.  Empire generally
concurred with our findings and recommendations.